No.

IN THE

J^uprrmi' (Unurt erf

JBtatrs

Martin James Kipp
Petitioner,
v.
Ron Broomfield, Acting Warden,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

I, Mark R. Drozdowski, a Deputy Federal Public Defender in the Office

of the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and 18 U.S.C.
ยง 3599(a)(2), and who is a member of the Bar of this Court, hereby certifies
that, pursuant to Supreme Court Rule 29.3, on May 18, 2021, a copy of the

enclosed Motion for Leave to Proceed in Forma Pauperis, Petition for a Writ

1

of Certiorari, Appendix to Petition for Writ of Certiorari, and Certificate
Pursuant to Rule 33 was mailed postage prepaid and electronically mailed to:

Counsel for Respondent

Randall D. Einhorn
Deputy Attorney General
Office of the California Attorney General
600 West Broadway, Suite 1800
P.O. Box 85266
San Diego, CA 92186-5266
Randall. Einhorn@doj .ca. gov
DocketingLAAWT@doj .ca.gov

All parties required to be served have been served. I declare under

penalty of perjury under the laws of the United States of America that the
foregoing is true and correct.

Executed on May 18, 2021 at Los Angeles, California.

L

07

A1

MARK R. DROZDOTSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

